                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 113030013                                                                      Page 1 of 1



         This matter originated from a proactive review 1 of awards made to former NSF rotators (IP As)
         within a short period of time after returning to their home institutions. Upon review of the award2
         information along with the former IPA's dates of employment, it appeared that the IPA had taken
         over as PI before the applicable "cooling-off' period had elapsed. Correspondence also indicated
         the decision to fund the project may have been made before the proposal was submitted.·

         Subsequent investigation, which included reviewing further correspondence, interviewing
         relevant program officials, interviewing the current and former Pis, and reviewing the financial
         records, revealed that the decision to fund this award was not made prior to the solicited
         submission of the proposal, and that the former IP A did not violate any NSF regulations when he
         was approved as the substitute PI. However, for approximately one year there was no oversight
         of the project by the named PI because he had moved overseas. We recommended to the
         university3 that it ensure all NSF awards have proper oversight by the named PI, as required by
         NSF rules.

         Accor'dingly, this investigation is closed.




NSF OIG Form 2 (11/02)
